Appendix B: Order Denying Petition for Rehearing

Case: 19-50285, 04/15/2021, ID: 12075327, DktEntry: 51, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
APR 15 2021
MOLLY C. DWYER, CLERK
U .S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appel lee,

Nos. 19-50285, 19-50286
D.C. Nos. 3:13-cr-01354-AJB-l
3: 16-cr-0 1332-AJB-3

v.
CYNTHIA LOZANO,

ORDER

Defendant-Appel Iant.
Before: CALLAHAN and WATFORD, Circuit Judges, and RAKOFF,* District
Judge.
The panel has voted to deny the petition for panel rehearing. Judges
Callahan and Watford vote to deny the petition for rehearing en bane, and Judge
Rakoff recommends denial. The full court has been advised of the petition for
rehearing en bane and no judge has requested a vote on whether to rehear the
matter en bane. Fed. R. App. P. 35. The petition for panel rehearing and the
petition for rehearing en bane are denied.

*

The Honorable Jed S. Rakoff, United States District Judge for the
Southern District of New York, sitting by designation.

